Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Austin, Texas, Police Department
GR-80-01-015July 13, 2001Office of the Inspector General

EXECUTIVE SUMMARY
ORI Number TX22701

The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the Office of Community Oriented Policing Services to the Austin, Texas, Police Department.  The purpose of the grants is to enhance community policing.  The police department was awarded a total of $16,296,249 to hire 183 new police officers and redeploy the equivalent of 68.9 existing full-time police officers from administrative duties to community policing.

We reviewed the Austin Police Department's compliance with seven essential grant conditions and found it complied with five of the seven areas tested:  budgeting for local officer positions, hiring of additional officers, local match requirements, retention of officer positions, and community policing activities.  However, we found weaknesses in reimbursement requests and redeployment of officers as summarized below.

The police department received reimbursements for $415,998 in excess of allowable costs ($248,430 for the MORE 95 grants and $167,568 for the MORE 96 grants).
	The police department did not sufficiently document the redeployment of officers to community policing, resulting in unsupported questioned costs of $767,896 ($739,683 for the MORE 95 grants and $28,213 for the MORE 96 grants).

While testing compliance with grant conditions, we also found that the police department did not incur $44,238 in equipment and personnel costs that were awarded ($38,881 for the MORE 96 grants and $5,357 for the MORE 98 initial grant).

	As a result of the deficiencies identified above, we question $935,464 in grant funds received and recommend an additional $44,238 be deobligated and put to better use. 1   These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology are described in Appendix I. 





The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.